Audit of Public Transportation
Benefit Program




                            March 27, 2009
                            Report No. 456
Audit of Public Transportation Benefit Program      March 27, 2009
Report No. 456
                                           Page i
    Audit of Transportation Subsidy Program
                             Executive Summary
Background: The U.S. Securities and Exchange Commission’s (SEC or
Commission) Public Transportation Benefit Program (transit benefit program)
was established in 1992 to encourage employees to commute to and from work
by means other than single occupant vehicles. To achieve this goal, the transit
benefit program provides financial incentives to employees who regularly
commute via public transportation, not to exceed the lesser of the Federal tax-
excludable amount (currently $120 per month for 2009), or the actual commute
cost. Executive Order 13150, “Federal Workforce Transportation,” was issued on
April 21, 2000, and mandated all Federal agencies in the national capital region
(Washington, D.C. metropolitan area) to implement a “transit pass” benefit
program by October 2000.

The SEC’s transit benefit program is administered by the Office of Human
Resources (OHR). The Commission spent approximately $1.3 million on the
transit benefit program in Fiscal Year 2007 and $1.6 million in Fiscal Year 2008.
As of July 18, 2008, approximately 1,655 headquarters employees and 1,067
regional office employees participated in the transit program.

Objectives: The Office of Inspector General conducted this audit in accordance
with our annual audit plan. The objectives of the audit were to:

    (1) Determine if the Commission has sufficient policies and procedures (i.e.,
        management controls) in place to ensure compliance with applicable laws,
        regulations, and other requirements and to prevent and detect waste,
        fraud, and abuse in the transit benefit program, and

    (2) Assess whether employees are complying with transit benefit program
        participation requirements.

Results: The audit found that the Commission has established some
management controls over the transit benefit program. However, there are
several areas in which significant improvements are needed.

Specifically, the transit benefit application form and application process need to
be strengthened to ensure compliance with the Office of Management and
Budget (OMB) internal control guidelines. In addition, we found that transit
benefit program participants were not always timely removed from the
Department of Transportation’s (DOT) transit database based upon when they
separated from the Commission. As a result, the audit found that some
employees inappropriately collected benefits after leaving the Commission.
Audit of Public Transportation Benefit Program                        March 27, 2009
Report No. 456
                                           Page ii
While we generally found that transit benefit program participants were
complying with the program requirements, we also found that some participants
did not adjust benefits when teleworking or taking extended leave. Further, OHR
was unable to provide complete transit application data for nearly 50 percent (24
of 50) of the transit benefit program participants in our sample that we selected to
test compliance with program requirements.

Summary of Recommendations

To strengthen management controls, OHR should:

    (1) Finalize its revised transit application by April 30, 2009, and ensure
        that the application requires transit benefit program participants to
        provide a breakdown of commuting costs in accordance with OMB
        guidelines and includes a certification below the Administrative
        Officer’s signature line that clearly states that the application has
        been reviewed for verification of eligibility and commuting costs;

    (2) Conduct periodic training and issue reminders to Administrative
        Officers on their responsibility to verify the eligibility and commuting
        costs of transit benefit program participants;

    (3) Put in place a process to require transit benefit program
        participants to annually recertify their eligibility and commuting
        costs (i.e., complete a new transit benefit program application);

    (4) Implement a process to obtain separation data on all Commission
        employees and compare that data to the DOT’s transit database to
        ensure that all separated employees who participated in the transit
        program have been promptly removed from DOT’s database;

    (5) Pursue collection of $394 in erroneous benefits collected by transit
        benefit program participants after they separated from the
        Commission;

    (6) Ensure for each file identified as missing or incomplete that OHR
        obtain the necessary documentation to create a file (electronic or
        hard copy) containing, at a minimum, a copy of the participant’s
        transit benefit program application, SmartBenefit application, and
        documentation to support changes in commuting costs;

    (7) Put in place a process to conduct periodic internal reviews of transit
        benefit program participants who are on extended leave and/or
        frequently telework to ensure they are properly reducing benefits;


Audit of Public Transportation Benefit Program                           March 27, 2009
Report No. 456
                                           Page iii
    (8) Remind transit benefit program participants that they are required
        to reduce benefits if they are on extended medical or personal
        leave, travel, and any other situation that results in their commuting
        cost to be less than the amount of benefits they are eligible to
        receive in the applicable month. Additionally, OHR should provide
        instructions on how benefits are adjusted under the SmartBenefits
        program;

    (9) Seek recovery of the estimated $225 in overpayments erroneously
        collected by transit benefit program participants while they were on
        leave;

  (10) Implement additional management controls over regional office
       transit benefit program operations to ensure they are in compliance
       with SEC requirements, including: (a) performing periodic reviews
       of regional offices to examine their transit benefit program
       processes, (b) requesting that regional offices provide semiannual
       reports to headquarters in addition to the Regional Directors
       discussing the results of their program audits, and (c) requiring
       regional offices to have written policies and procedures tailored to
       their specific transit benefit programs.




Audit of Public Transportation Benefit Program                         March 27, 2009
Report No. 456
                                           Page iv
                              TABLE OF CONTENTS
Executive Summary ......................................................................................................iii

Table of Contents ......................................................................................................... v

Background................................................................................................................... 1

Objectives .....................................................................................................................3

Findings and Recommendations................................................................................... 4

Finding 1: The Transit Benefit Application Form and Process Should Be
Strengthened ................................................................................................................4
     Cost Breakdown ................................................................................................... 5
     Independent Verification of Commuting Costs and Eligibility ................................ 6
     Re-certifications .................................................................................................... 7
     Recommendation 1............................................................................................... 7
     Recommendation 2............................................................................................... 8
     Recommendation 3............................................................................................... 8

Finding 2: Employees Separating the Agency Are Not Always Removed In a
Timely Manner from DOT’s Transit Database............................................................... 8
     Recommendation 4............................................................................................. 10
     Recommendation 5............................................................................................. 10

Finding 3: Transit Benefit Application Data Was Not Always Available or
Complete .................................................................................................................... 10
     Maintenance of Transit Benefit Program Applications and Related
     Documentation.................................................................................................... 11
     Transit Application Authorizations....................................................................... 12
     Adjusting Benefits Due to Telework/Leave ......................................................... 12
     Recommendation 6............................................................................................. 14
     Recommendation 7............................................................................................. 15
     Recommendation 8............................................................................................. 15
     Recommendation 9............................................................................................. 15

Finding 4: SEC Headquarters Should Increase Monitoring of Regional Office
Transportation Benefit Programs ................................................................................ 15
     Recommendation 10........................................................................................... 17




Audit of Public Transportation Benefit Program                                                      March 27, 2009
Report No. 456
                                                 Page v
Appendices
     Appendix I: Acronyms. ..................................................................................... 19
     Appendix II: Scope and Methodology............................................................... 20
     Appendix III: Criteria......................................................................................... 22
     Appendix IV: List of Recommendations ........................................................... 23
     Appendix V: Management Comments.............................................................. 25
     Appendix VI: OIG Response to Management’s Comments ............................. 26




Audit of Public Transportation Benefit Program                                              March 27, 2009
Report No. 456
                                             Page vi
                    Background and Objectives

Background
The U.S. Securities and Exchange Commission’s (SEC or Commission) Public
Transportation Benefit Program (transit benefit program) was established in 1992
to encourage employees to commute to and from work by means other than
single occupant vehicles. To achieve this goal, the transit benefit program
provides financial incentives to employees who regularly commute via public
transportation, not to exceed the lesser of the Federal tax-excludable amount
(currently $120 per month for 2009) or the actual commute cost. Executive
Order 13150, “Federal Workforce Transportation,” was issued in April 21, 2000,
and mandated that all Federal agencies in the national capital region
(Washington, D.C. metropolitan area) implement a transit pass benefit program
by October 2000.

In April 2007, the Government Accountability Office (GAO) provided testimony to
a Congressional Subcommittee regarding the Federal Transit Benefits Program,
entitled “Ineffective Controls Result in Fraud and Abuse by Federal Workers.”
GAO found that individuals were selling Metrocheks on eBay and Craigslist, as
well as claiming benefits to which they were not entitled, and identified
weaknesses in the design of program controls at several agencies. 1 As a result
of the GAO review, the Office of Management and Budget (OMB) issued a
memorandum to the Executive departments and agencies in May 2007 requiring
all agencies with transit benefit programs to implement several internal controls
designed to deter fraud, waste, and abuse. 2 The OMB required internal controls
included application requirements, independent verification of eligibility, and
program implementation controls.

The SEC’s transit benefit program is administered by the Office of Human
Resources (OHR). A program manager oversees the daily operations of the
transit benefit program at the SEC’s headquarters location (Washington, D.C.
metropolitan area). In participating regional offices, a program coordinator
administers the transit benefit program under the direction of the office’s
Regional Director.




1
  GAO-07-724T, Testimony Before the Permanent Subcommittee on Investigations, Committee on
Homeland Security and Governmental Affairs, U.S. Senate: Federal Transit Benefits Program, Ineffective
Controls Result in Fraud and Abuse by Federal Workers, April 24, 2007.
2
  M-07-15, Memorandum For All Heads of Departments and Agencies, dated May 14, 2007, Subject:
Federal Transit Benefits Program.
Audit of Public Transportation Benefit Program                                         March 27, 2009
Report No. 456
                                          Page 1
To assist in administering the program, the SEC entered into an interagency
agreement with the Department of Transportation (DOT). 3 Under this
agreement, DOT is responsible for processing enrollment applications,
safeguarding and distributing fare media, providing monthly statements regarding
employee participation, maintaining a database that identifies all participants in
the program, and providing customer service support for the headquarters
location, as well as the Los Angeles and Atlanta regional offices. OHR handles
all enrollments, terminations and employee record changes for the transit benefit
program.

The Commission spent approximately $1.3 million on the transit benefit program
in Fiscal Year 2007 and $1.6 million in Fiscal Year 2008. As of July 18, 2008,
approximately 1,655 headquarters employees and 1,067 regional office
employees participated in the transit program. Based on DOT data as of
November 2008, approximately 1,206 headquarters employees received
SmartBenefits by downloading them on a SmarTrip Card.

SmartBenefits is a web-based program that allows employers to assign a value
to the employees’ SmarTrip card. Effective in March 2009, employees
commuting to and from work via Metrorail and Metrobus must use SmarTrip
cards. A SmarTrip card is a rechargeable fare card that can be purchased and
registered through the Washington Metropolitan Area Transit Authority
(WMATA). In order for employees to gain access to their SmartBenefits, they
have to download their benefits electronically from a Metro station passes/fare
card machine onto their SmarTrip cards each month. Use of the SmarTrip card
provides employees a way to recoup losses if the card is lost or stolen. It also
gives employees the ability to consolidate all transit benefit funding into one
place, including adding their own money, up to the $300 card maximum funding
capacity. Employees who do not download the monthly benefit to their SmarTrip
cards by the last day of the benefit month lose that month’s funding, which
automatically reverts to the Agency as a credit on a future WMATA monthly
invoice.

Effective March 2009, employees who commute to work on any form of
transportation that does not accept the SmarTrip card (e.g., certified vanpool,
Virginia Railroad Express or MARC train) have the option of receiving their
approved monthly transit benefits by paper fare (SmartTrip vouchers). These
participants will still go to the regularly scheduled transit disbursements at the
SEC’s headquarters location at Station Place and the Operations Center in
Alexandria, VA to pick up their benefits covering a two-month period. Annually,
participants are provided a schedule of distribution dates and are also reminded
by email of upcoming distribution dates.


3
 Interagency Agreement Between SEC and DOT dated September 11, 2008, Agreement Number 021-TFC-
3017010201-09.
Audit of Public Transportation Benefit Program                                 March 27, 2009
Report No. 456
                                      Page 2
Objectives
The Office of Inspector General (OIG) conducted this audit in accordance with
our annual audit plan. The objectives of the audit were to:

    (1) Determine if the Commission has sufficient policies and procedures (i.e.,
        management controls) in place to ensure compliance with applicable laws,
        regulations, and other requirements, and to prevent and detect waste,
        fraud, and abuse in the transit benefit program, and

    (2) Assess whether employees are complying with transit benefit program
        participation requirements.




Audit of Public Transportation Benefit Program                     March 27, 2009
Report No. 456
                                           Page 3
              Findings and Recommendations

The audit found that the Commission has established some management
controls over the transit benefit program. However, additional improvements can
be made in the areas of:

    (1) Strengthening the transit benefit program application process;
    (2) Timely removing separated employees from DOT’s transit database;
    (3) Maintaining complete pertinent data on current program participants; and
    (4) Increased monitoring of regional office transit benefit programs.

Additionally, while we generally found that transit benefit program participants
were complying with the program requirements, we also found that some
participants may not be adjusting their benefits due to telework schedules and
extended leave.

Finding 1: The Transit Benefit Application
Form and Process Should Be Strengthened
                The Commission’s internal policies and procedures
                for the transit benefit program, SECR 5-9, Public
                Transportation Subsidy Program, 4 generally reflect
                current processes and procedures and appear to be
                consistently followed; however, the program
                application form and application process need to be
                strengthened to ensure compliance with the OMB
                Memorandum M-07-15, Federal Transit Benefits
                Program, dated May 14, 2007 (OMB Memorandum
                M-07-15).

The OMB Memorandum M-07-15 was issued in response to an April 2007 GAO
review in which numerous instances of fraud and abuse of Metrocheks by
Federal employees were disclosed. The memorandum required agencies to
confirm in writing, by no later than June 30, 2007, that certain internal controls
had been implemented regarding the transit application process, including the
following:




4
 SECR 5-9, SEC Administrative Regulation, Public Transportation Subsidy Program, February 16, 2005.
Audit of Public Transportation Benefit Program                                       March 27, 2009
Report No. 456
                                         Page 4
Application Requirements

    •   Commuting Cost Breakdown

Independent Verification of Eligibility

    •   Commuting Cost Verified by Approving Official (e.g., employee’s
        home address validated and commuting cost correctly calculated).
    •   Eligibility Verified by Approving Official 5

The SEC’s response to OMB stated that the OHR Transit Benefit Program
Manager routinely verifies that all applications include a home address,
employee work address, commuting cost breakdown, and an employee
certification of eligibility. Additionally, the OHR Transit Benefits Manager
currently verifies all applications by utilizing the WMATA trip planner tool to
ensure employees request the correct amount of transportation benefits.

Based on our review of the Commission’s internal policies and procedures, and
interviews of transit benefit program representatives, we found that the SEC has
not fully implemented the following OMB required internal controls:

        1. Cost Breakdown

        The current SEC application for transit benefits, SECR 2445, Application
        for Transit Benefit, dated April 2004, does not require a cost breakdown of
        a participant’s commuting costs. The application contains a certification
        that states, “I certify that my average monthly commuting cost on public
        transportation is $___________________. This amount does not include
        parking or expense for my personal vehicle. It does not reflect
        consideration for periods of regular and/or recurring extended business
        travel when I will not commute from home to work.”

        An attachment to OMB Memorandum M-07-15 contains a mass transit
        expense worksheet showing that participants should be required to list
        their mode(s) of transportation (e.g., bus, light rail subway, train or
        vanpool), daily expense, weekly expense and monthly expense.
        Additionally, teleworkers and part-time employees must complete a
        specific section of the worksheet showing the appropriate reductions in
        benefits.

        Based on discussions with the SEC’s current OHR Transit Program
        Manager during the course of this audit, the SEC’s application for transit
        benefits is being revised to include a cost breakdown and a draft is
        currently being circulated for comment.
5
 OMB Memorandum M-07-15, page 2.
Audit of Public Transportation Benefit Program                         March 27, 2009
Report No. 456
                                           Page 5
        2. Independent Verification of Commuting Costs and Eligibility

        The OMB’s internal control guidelines require that an approving official
        verify a transit benefit program participant’s eligibility and commuting
        costs. Currently, the SEC’s OHR Transit Program Manager primarily
        relies on the Administrative Officers within each office/division to perform
        this function as part of their review of the transit benefit program
        application prior to its submission to OHR. The Transit Program Manager
        then performs a second, more cursory review of the application prior to
        submitting it to DOT.

        The SECR 5-9, Public Transportation Subsidy Program, states that the
        Administrative Officer will review the application for accuracy, indicate the
        month that the participant is eligible to start receiving the transit benefit,
        enter the organizational name and code, sign on the appropriate line and
        forward the application to OHR. 6 However, there is no documentation to
        support that the Administrative Officers are independently verifying
        employees’ commuting costs and eligibility.

        We noted the following specific issues. First, while the SEC has
        designated Administrative Officers as approving officials for transit
        applications and requires them to sign the application prior to submission
        to OHR, it is not clear what the Administrative Officer’s approval
        represents (i.e., the signature line does not currently contain a certification
        of any kind). Second, without having some type of cost breakdown on the
        transit application, the task of verifying commuting costs is difficult to
        perform with any accuracy. For example, in order to verify commuting
        costs appropriately, Administrative Officers would have to determine the
        closest rail or train station based on the participant’s home address and
        estimate costs without knowing if the person also took a vanpool, bus, etc.
        Moreover, there is no evidence that the Administrative Officers are
        actually performing this calculation. Third, based on our review of a
        sample number of transit benefit program files containing application
        information, the files generally do not contain supplemental information
        (e.g., a WMATA trip planner or equivalent) documenting that commuting
        costs were verified.

        Based on discussions with the current OHR Transit Benefit Program
        Manager, and after the auditor brought this matter to OHR’s attention,
        OHR has modified the transit benefit program application to include a
        certification statement below the Administrative Officer’s contact signature
        block to clearly indicate what the signature represents. We believe that in
        addition to this certification, OHR should periodically train and remind


6
 SECR 5-9, page 5.
Audit of Public Transportation Benefit Program                          March 27, 2009
Report No. 456
                                           Page 6
        Administrative Officers of their responsibilities with respect to verifying
        eligibility and commuting costs.

        3. Re-certifications

        The SEC currently does not require transit benefit applicants to recertify
        their eligibility and commuting costs on a periodic basis (i.e., complete a
        new transit benefit program application). As a result, the SEC may have
        outdated information on file for many program participants.

        The current application contains a box at the top of the form in which
        transit benefit program participants can place a check to change a name,
        address, or commuting cost. They can also apply as a new enrollee or re-
        enroll after a period of non-participation. The application currently does
        not have a box or requirement to have program participants periodically
        recertify their transit information.

        While OMB’s internal control guidelines do not explicitly require re-
        certification, OMB attached to M-07-15 an application adopting OMB’s
        required controls that includes a box at the top of the form for individuals
        to check for re-certification. Also, the OIG believes that periodic re-
        certification is a necessary internal control to help ensure that OHR has
        current commuting information on transit benefit program participants.
        Additionally, as the application for transit benefits is modified in the future,
        participants will be required to sign the new forms and related
        representations/certifications.

        In response, the OHR Transit Benefit Program Manager agreed there is a
        need to implement a recertification requirement (i.e., have participants
        periodically fill out new transit benefit program applications that would
        contain cost breakdowns, etc.). However, he noted that in December
        2008, DOT required all participants to sign a declaration form stating
        whether they would be using the SmartTrip card or SmartTrip vouchers,
        and that this declaration also required participants to provide their monthly
        commuting costs.

Recommendation 1

The Office of Human Resources should finalize its revised transit benefit program
application by April 30, 2009, and ensure that the application:

    (1) Requires transit participants to provide a breakdown of commuting costs
        in accordance with OMB guidelines; and



Audit of Public Transportation Benefit Program                           March 27, 2009
Report No. 456
                                           Page 7
    (2) Includes a certification below the Administrative Officer’s signature line
        that clearly states that the application had been reviewed for verification of
        eligibility and commuting costs.

Recommendation 2

The Office of Human Resources should conduct periodic training and issue
reminders to Administrative Officers on their responsibility to verify transit
participants’ eligibility and commuting costs.

Recommendation 3

The Office of Human Resources should put in place a process to require transit
participants to re-certify annually their eligibility and commuting costs (i.e.,
complete a new transit benefit application).


Finding 2: Employees Separating From the
Agency Are Not Always Removed In a Timely
Manner From DOT’s Transit Database
                 We found that transit benefit program participants
                 were not always removed in a timely manner from the
                 DOT transit database upon separation from the
                 Commission. As a result, we found that some
                 employees inappropriately collected benefits after
                 leaving the Commission.

We obtained employee separation data from OHR for Fiscal Year 2008 and
compared the information to a DOT list of all transit benefit program participants
as of November 2008. We also identified 38 participants who had separated
from the SEC, but were still active in DOT’s transit benefit program database.
We brought this issue to the attention of the OHR Transit Benefit Program
Manager, who in turn asked DOT to clean-up the database by removing
applicants who had been inactive for three or more months. Through this
process, the OHR Transit Benefit Program Manager also discovered that DOT
was not automatically purging the database every three months as the SEC had
requested. The SEC has instructed DOT to do so going forward.

We then identified and gathered detailed information for 13 transit benefit
program participants who remained in DOT’s transit database after the clean-up
of records, to determine why they were still active participants in the SEC’s


Audit of Public Transportation Benefit Program                         March 27, 2009
Report No. 456
                                           Page 8
transit benefit program when they were shown as having separated from the
Commission. Based on available data from DOT and OHR, we found:

    •   For 10 of 13 participants (which included two student interns and
        one employee who subsequently became a contractor), OHR and
        the Office of Financial Management (OFM) could not locate a copy
        of an exit clearance form (SEC Form 1455), as required by SECR
        7-4, Employee Clearance Process, dated December 31, 1999. As
        a result, according to the OHR Transit Benefit Program Manager,
        OHR was unaware that these individuals had left the agency and,
        therefore, did not initiate action to have them removed from DOT’s
        transit database. Further, we found that three of the 10 transit
        participants withdrew benefits using their SmartCards or picked up
        benefits totaling $624, after they separated from the SEC as
        detailed in the table below. OHR, in conjunction with OFM,
        required Participant B to return the $230 in erroneous benefits after
        another SEC employee notified DOT that the individual had
        become a contractor and was no longer entitled to the benefits.


 Table 1: Transit Participants Withdrawing Benefits After Separation
   Participant              Separation           Dates and Amounts of    Amount of
                            Date                 Drawdowns/Pickups       Benefits
                                                                         Received After
                                                                         Separation
   A                        1/19/08              Drawdown: 6/29/08,      $184
                                                 $92, 10/26/08, $92
   B                        7/20/08              Pickup: 8/6/08 for      $230
                                                 August $115 and
                                                 September $115
   C                        8/8/08               Drawdown: 10/26/08,     $210
                                                 $105, 11/29/08, $105
   Total                                                                 $624
  Source: OIG Generated


    •   An OFM representative responsible for the exit clearance process
        was unable to provide the OIG with an explanation for why there
        were no exit clearance forms for the 10 participants.

    •   For 2 of 13 participants, an OHR transit benefit program
        representative signed the exit clearance form, but there was no
        documentation to show that OHR had instructed DOT to remove
        the participants from its database. For one of the two participants,
        the OHR transit benefit program representative who signed the
        form was no longer employed at the SEC and, therefore, was
        unavailable for comment.

Audit of Public Transportation Benefit Program                          March 27, 2009
Report No. 456
                                           Page 9
    •   For 1 of 13 participants, an exit clearance form was completed by
        the participant and signed by the Administrative Officer, but the
        OHR Transit Benefit Program Manager never received it. As a
        result, the OHR Transit Benefit Program Manager was unaware
        that the participant had separated from the SEC and did not
        remove him from DOT’s transit database. It should be noted that
        the employee exit clearance form does not provide specific
        instructions as to who should sign off on particular items, such as
        transit benefits.

Due to the unreliability of the exit clearance process, OHR should periodically
review separation data to identify any transit benefit program participants who
need to be removed from DOT’s transit database so these participants are no
longer eligible to collect benefits. OHR should also make efforts to recover the
$394 in erroneous benefits collected by participants after they separated from the
Commission.

Recommendation 4

The Office of Human Resources should implement a process to obtain data on
all separated Commission employees and compare that data to the Department
of Transportation (DOT) transit database to ensure all separated employees who
participated in the transit benefit program have been promptly removed from
DOT’s records.

Recommendation 5

The Office of Human Resources, in coordination with the Office of Financial
Management, should pursue collection of the $394 in erroneous benefits that
were collected by Participants A and C after they had separated from the
Commission.


Finding 3: Transit Benefit Application Data
Was Not Always Available or Complete
                 The audit found that transit benefit application data
                 was not always available or complete. Additionally,
                 transit benefit program participants may not always be
                 adjusting their transit benefits while on leave and
                 teleworking. As a result, management controls are
                 not always functioning as intended.


Audit of Public Transportation Benefit Program                        March 27, 2009
Report No. 456
                                           Page 10
Where documentation was available for our judgmental sample of 50 transit
benefit program participants, we generally found that the applications were
complete, the participant was eligible to collect transit benefits (e.g., was not a
government contractor, non-paid intern, etc.), claimed commuting costs were
reasonable, OHR timely processed the applications, and employees adjusted
their transit benefits while on extended leave.

However, OHR was unable to provide complete application data for nearly half of
our sample (24 of 50 participants) and, therefore, we were unable to determine
for those participants whether the application was processed timely and claimed
commuting costs were reasonable. We also identified three instances where
transit benefit applications were not signed by the Administrative Officers or by
OHR, prior to being sent to DOT. Further, we found that two transit participants
did not adjust benefits due to extended leave. Lastly, we were unable to obtain
telework data detailing actual days or hours of telework for any of the sampled
transit benefit program participants to determine if participants had appropriately
reduced benefits while teleworking.

Maintenance of Transit Benefit Program Applications and Related
Documentation

We requested OHR to provide OIG with transit benefit program applications and
supporting documentation, such as SmartBenefit applications, transit benefit
increase requests, and emails showing when OHR processed the application and
forwarded it to DOT for the 50 participants in our sample. 7 OHR was unable to
provide any information or files for seven applicants. Additionally, for 17
applicants, OHR provided files, but they did not contain copies of the transit
benefit applications, which are the primary documents containing the participants’
transit-related information and approvals by the applicable Administrative Officer
and OHR.

The OHR Transit Benefit Program Manager explained that prior to the time he
took over responsibility for the transit benefit program in May 2008, there was no
centralized OHR filing system for the program. Transit benefit applications and
related information were kept in prior OHR Transit Benefit Program Managers’
personal hard copy files, as well as personal emails. The OHR Transit Benefit
Program Manager provided documentation to show that OHR is working with the
SEC’s Office of Information Technology to develop a database to house key
transit benefit data, as well as electronic copies of applications and other related
forms. Additionally, OHR has set up a dedicated Outlook mailbox and drive for
transit benefit program correspondence and documents.


7
  It should be noted that these participants were active in the transit benefit program during Fiscal Year
2008; however, many of them entered the program several years earlier. Accordingly, the scope of our
review of transit benefit application processing extended beyond Fiscal Year 2008 activities.
Audit of Public Transportation Benefit Program                                               March 27, 2009
Report No. 456
                                            Page 11
Transit Application Authorizations

We also found that three transit benefit applications were not signed by the
Administrative Officers or OHR, as required by the SEC internal guidelines.

SECR 5-9, Public Transportation Subsidy Program, requires transit benefit
applications to be approved by both the Administrative Officer and OHR prior to
submission to DOT. 8 These authorizations are necessary to ensure that the
participant is eligible for the program and commuting costs are properly
calculated.

Based on available transit benefit program files and data for our judgmental
sample of 50 participants, we found one application that did not contain a
signature to show that it was reviewed by the Administrative Officer, prior to
submission to OHR. Additionally, two applications did not contain signatures
from the OHR Transit Benefit Program Manager to show they were reviewed and
authorized by OHR. We found, however, that all applications processed by the
current OHR Transit Benefit Program Manager contained the required OHR
signatures.

Adjusting Benefits Due to Telework/Leave

The audit found that transit benefit program participants may not always be
adjusting their transit benefits when they are on recurring telework schedules or
are on extended leave. As a result, they were collecting benefits to which they
were not entitled.

SECR 5-9, Public Transportation Subsidy Program, requires transit benefit
program participants who are on extended leave, personal leave, travel, or any
other situation that causes their commuting costs to be less than the amount they
are eligible to receive in any particular month to reduce the amount of transit
benefits they claim. If they receive the full monthly benefit and did not use the full
amount due to unanticipated personal leave or business travel, they must
appropriately reduce their benefit at the next transit disbursement. 9

Based on our sample of 50 transit benefit program participants, 30 participants
had telework agreements on file with recurring telework schedules of six or more
days per pay period, according to OHR records. Additionally, based on our
review of payroll records, 18 participants took 32 or more hours of extended
leave during Fiscal Year 2008 (e.g., sick leave, leave without pay).

We found that 17 participants who were approved to work a recurring telework
schedule of six or more days per pay period still claimed the $115 maximum

8
 SECR 5-9, page 5.
9
 SECR 5-9, page 6.
Audit of Public Transportation Benefit Program                         March 27, 2009
Report No. 456
                                           Page 12
transit benefit during Fiscal Year 2008 each month. It should be noted, however,
that there is no system for tracking actual days or hours of telework.
Consequently, OHR was unable to provide actual telework data for the
participants. Therefore, we could not confirm whether participants actually
worked their approved telework schedules.

The Work Life Program Manager is responsible for maintaining telework
agreements filed with the Work Life Program Office. The Work Life Program
Manager explained that the SEC’s time and attendance system, Quicktime, 10 has
a telework code available that employees can use to denote the number of hours
teleworked per pay period; however, many employees are not aware of the code
and few are using it. Additionally, Quicktime does not provide a report form for
accessing and analyzing the telework code data, so it is not yet a viable system
for tracking or reporting actual telework hours or days. The Work Life Program
Manager stated that she is beginning a pilot program with a subgroup of
employees to test a campaign to raise awareness of the telework code and the
proper procedures employees are to follow to report actual telework hours.
However, until the Department of Interior includes a reporting capability for the
telework code, the SEC will not be able to track employees’ actual telework
hours. Also, once the reporting capability is in place and employees are
educated on the proper use of the telework code, the data will still be subject to
each employee’s accurate self-reporting of telework hours.

We also identified two participants who were on extended leave during Fiscal
Year 2008, per the SEC’s payroll records, but did not appear to have adjusted
their benefits per DOT records, as shown in the Table 2 below. Payroll records
from OHR show that Participant 1 was on extended sick leave for the entire
month of July 2008 and the first half of August 2008; however, the participant
collected the full $115 transit benefit for both July and August. Based on the
participant’s total monthly estimated commuting costs of $150, we calculated the
participant’s total actual commuting costs were approximately $75 altogether for
July and August. This resulted in the participant receiving approximately $155 in
benefits that the participant was not entitled to receive.

Participant 2 was on extended sick leave during the second half of December
2007 and the first half of January 2008; however, the participant collected $110
per month for both December and January. Based on the participant’s total
monthly estimated commuting costs of $150, we calculated that the participant’s
total actual commuting costs were approximately $150 altogether for December
and January. This resulted in the participant receiving approximately $70 that
the participant was not entitled to receive.



10
 Quicktime is the time and attendance system that the SEC uses and it is operated by the
Department of Interior.
Audit of Public Transportation Benefit Program                                March 27, 2009
Report No. 456
                                           Page 13
Table 2: Participants on Extended Leave That Did Not Adjust
Benefits During FY 2008
 Participant    Dates Extended     Number of        Total Monthly    Monthly          Monthly          Estimated
     No.         Leave Taken       Commuting        Commuting         Benefit        Estimated         Amount of
                                   Days in          Costs            Received       Commuting        Overpayment
                                   Month            Claimed Per                        Costs         for the Month
                                   (Excluding       Transit
                                   Holidays and     Application
                                   Leave Taken)
                                    11




      1         Jul 1-31, 2008           0             $150           $115              $0               $115

                Aug 1-16, 2008           10            $150           $115             $75                $40

      2         Dec 9-22, 2007           9             $150           $110           $67.50             $42.50

                Jan 6-19, 2008           11            $150           $110           $82.50             $27.50

                    Total
                Overpayments                                                                            $225 12
Source: OIG Generated

OHR should seek recovery of the $225 in estimated overpayments shown in the
table above. OHR should also remind transit participants that they are required
to reduce benefits if they are on extended leave (i.e., annual, sick, etc.), travel,
recurring telework and any other situation that causes their commuting costs to
be less than the amount they are eligible to receive in a given month. Further,
OHR should provide instruction on how benefits can be adjusted under the
SmartBenefits program. Finally, OHR should periodically conduct reviews of all
participants to ensure they only collect the benefits they are entitled to receive.

Recommendation 6

The Office of Human Resources should ensure for each file identified as missing
or incomplete that it obtains the necessary documentation to create a file
(electronic or hard copy) containing, at a minimum, a copy of the participant’s
transit benefit program application, SmartBenefit application, and documentation
to support changes in commuting costs.




11
   Participant 1 and Participant 2 had recurring telework schedules in place during the relevant timeframe for
four and two days, respectively. Our calculation of the number of commuting days for the applicable months
does not take into account the number of days the person may have teleworked as the data was not readily
available. Consequently, further reductions in benefits may be necessary.
12
   This amount only represents overpayments identified based on a sample of 18 transit participants who
took extended leave during FY 2008. Accordingly, the actual amount of overpayments for the entire
population of transit benefit program participants may be significantly higher.
Audit of Public Transportation Benefit Program                                              March 27, 2009
Report No. 456
                                              Page 14
Recommendation 7

The Office of Human Resources should develop a process to conduct internal
reviews periodically of transit benefit program participants to ensure they properly
reduce benefits as required and only collect the benefits they are entitled to
receive.

Recommendation 8

The Office of Human Resources should periodically remind transit benefit
program participants that they are required to reduce benefits if they are on
extended medical or personal leave, travel, recurring telework or any other
situation that causes their commuting costs to be less than the amount they are
eligible to receive for that month. Additionally, OHR should provide participants
with instructions on how benefits are adjusted under the SmartBenefits program.

Recommendation 9

The Office of Human Resources, in coordination with the Office of Financial
Management, should seek recovery of the estimated $225 in overpayments that
were improperly collected by transit benefit program participants while on leave.



Finding 4: SEC Headquarters Should Increase
Monitoring of Regional Office Transportation
Benefit Programs
                 We found that SEC headquarters performs minimal
                 oversight of the transit benefit programs in the
                 regional    offices.   Increased      monitoring     by
                 headquarters is necessary to ensure that regional
                 offices have proper internal controls in place for their
                 transit benefit programs and to ensure regional office
                 employees are complying with program requirements.

SECR 5-9, Public Transportation Subsidy Program, states that a Program
Coordinator administers the Transportation Benefit Program under the direction
of the Regional Director in participating field (now regional) offices. 13 Regional
Directors are responsible for developing a Transportation Benefit Program for
their offices, providing overall guidance for their programs, and overseeing the
Program Coordinators, Recording Agents, Disbursing Agents and Local Program


13
  SECR 5-9, page 11.
Audit of Public Transportation Benefit Program                          March 27, 2009
Report No. 456
                                           Page 15
Auditors. Each member is responsible for specific duties according to his or her
designations. Other specific duties are designated as follows:

     (1) Program Coordinators - Oversee the daily operations of the program for
         their field offices;

     (2) Recording Agents - Keep updated records of all benefit transactions and
         enroll employees into the program;

     (3) Disbursement Agents - Disburse transportation benefits to participants;
         and

     (4) Local Program Auditors - Perform semiannual audits and provide the
         results to the Regional Directors.

OHR provides overall guidance for the Transportation Benefit Program at
headquarters, as well as the regional offices. 14

SECR 5-9, Public Transportation Subsidy Program, also states that Regional
Directors are required to submit annual program activity reports (SEC 2416 and
SEC 2418) to OHR, by no later than November 30th of each year. 15 OHR then
reviews and consolidates the annual reports from the field offices (now regional
offices) into the overall agency report.

Based on discussions with the current OHR Transit Benefit Program Manager,
we found that basic program data (e.g., number of participants, type of fare
media, etc.) is collected from regional offices in order to recommend an annual
level of funding for the transit benefit program. However, according to the OHR
Transit Benefit Program Manager, regional offices are no longer required to
provide the annual activity reports referenced in SECR 5-9, nor are regional
offices required to provide a copy of their semiannual audit results to OHR.

We performed a limited review of the transit benefit programs in the regional
offices, which consisted of interviewing officials responsible for transit benefit
program operations in the New York, Boston, and Chicago regional offices. The
regional offices generally represented that they follow the policies and
procedures in SECR 5-9, Public Transportation Subsidy Program, with regard to
enrolling and disbursing transit benefits, records maintenance and segregation of
duties. However, because the transit systems within each region vary widely,
internal processes may differ according to the regional offices’ individual needs.
These unique processes are not documented in written policies and procedures
specific to each regional office.


14
  SECR 5-9, page 12.
15
  SECR 5-9, page 14.
Audit of Public Transportation Benefit Program                       March 27, 2009
Report No. 456
                                           Page 16
Additionally, the three regional offices indicated that they perform internal
program reviews according to the SEC guidelines; however, the reviews are not
necessarily documented in a report format and the results are not provided to
OHR.

The OIG believes that because OHR has overall responsibility for transit benefit
program policy, it should implement additional internal controls to ensure that
regional offices adhere to the SECR 5-9 requirements, including conducting
semiannual program reviews. Ensuring appropriate internal controls are in place
is particularly important for the regional offices since most are not included in the
SEC’s interagency agreement with DOT, and therefore, are fully responsible for
enrolling applicants and disbursing, recording, changing, and terminating transit
benefits.

According to the OHR Branch Chief responsible for the transit benefit program,
new and additional transit benefit program requirements call for added resources
and perhaps improved technological approaches to monitor the nation-wide
transit benefit program. Currently, the headquarters transit benefit program is
staffed with one full-time person and one part-time student. These individuals
remain busy administering the headquarters program, including advising
employees on updated enrollment requirements, processing transit applications
and terminations from the program, managing program communications and
coordinating program changes for headquarters.

We recommend that OHR perform periodic reviews of regional offices (including
site visits) to examine their transit benefit program processes and ensure
compliance with SEC requirements, including those for proper recordkeeping,
segregation of duties and program reviews. Additionally, OHR should require
regional offices to provide semiannual reports to headquarters, in addition to the
Regional Directors discussing the results of their program audits. These reports
should include audit results, statistical data on the regional office’s transit benefit
program (e.g., how many participants are in the program, how many participants
joined the program and have exited the program during a semiannual period,
etc.) and perhaps optional information (e.g., what types of issues the office has
encountered during the period. Further, each regional office should have written
policies and procedures tailored to its specific transit benefit program. A copy of
these policies and procedures should be provided to headquarters for its records,
and updates should also be provided as they become available.

Recommendation 10

The Office of Human Resources should implement additional management
controls over regional office transit benefit program operations to ensure
compliance with required SEC guidelines, including (1) performing periodic
reviews of regional offices to examine their transit benefit program processes, (2)

Audit of Public Transportation Benefit Program                          March 27, 2009
Report No. 456
                                           Page 17
requesting that regional offices provide semiannual reports to headquarters, in
addition to the Regional Directors discussing the results of their program audits,
and (3) requiring regional offices to have written policies and procedures tailored
to their specific transit benefit programs.




Audit of Public Transportation Benefit Program                       March 27, 2009
Report No. 456
                                           Page 18
                                                                            Appendix I

                                          Acronyms

DOT                                Department of Transportation
GAO                                Government Accountability Office
OFM                                Office of Financial Management
OHR                                Office of Human Resources
OIG                                Office of Inspector General
OMB                                Office of Management and Budget
SEC or Commission                  U.S. Securities and Exchange Commission
WMATA                              Washington Metropolitan Area Transit Authority




Audit of Public Transportation Benefit Program                            March 27, 2009
Report No. 456
                                           Page 19
                                                                       Appendix II


                           Scope and Methodology
We conducted this performance audit in accordance with generally accepted
government auditing standards. These standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. We obtained data from OHR, OFM and DOT covering transit benefit
activities during Fiscal Year 2008. The scope of our review included transit
benefit program participants and activities at the SEC’s headquarters office, as
well as a limited review of transit activities at the SEC’s New York, Boston, and
Chicago regional offices. We conducted our fieldwork from November 2008
through February 2009.

Methodology. We interviewed staff and managers in the Office of Human
Resources, as well as the New York, Boston, and Chicago regional offices, to
gain an understanding of the operations of the transit benefit program. We
reviewed available documentation, including transit benefit program files
maintained by the OHR and information available on the SEC’s intranet. We
attended a scheduled bi-monthly transit benefit disbursement session to observe
the roles and responsibilities of both OHR and DOT officials. We held
discussions with, and obtained documentation from, DOT officials regarding the
SEC’s transit benefit program and DOT’s responsibilities under their interagency
agreement with the SEC. Lastly, we tested data to determine if transit benefit
program participants were complying with program requirements.

Management Controls. We reviewed internal controls that were considered
significant within the context of the audit objectives. We interviewed OHR
management and staff, identified and reviewed applicable policies and
procedures, obtained and reviewed available transit benefit program
documentation, and tested data for compliance with selected policies and
procedures.

Prior Audit/Investigative Coverage. The SEC OIG issued a previous audit
report on the transit benefit program (Audit Report No. 237, August 1996). The
audit found that controls were generally functioning as intended and
recommended some improvements to internal controls. All recommendations
from the prior audit have been closed. Also, as a result of two investigations
related to the transit benefit program, the SEC OIG issued investigative
memoranda in February 1998 and September 2001, respectively (OIG-248 and
Audit of Public Transportation Benefit Program                       March 27, 2009
Report No. 456
                                           Page 20
G-335), which recommended program changes to enhance management
controls over the transit benefit program.

Use of Computer-Processed Data. We used computer-processed data such
as emails, Excel spreadsheets, and DOT transit database information. We did
not test the DOT database. To the extent practical, we compared the data with
source documents. We did not perform extensive testing of system general or
application controls. DOT data was used to identify the total population of
headquarter transit benefit program participants and relevant data such as
participants’ claimed and collected benefits.

Judgmental Sample. We used two separate judgmental samples for data
testing. The first sample consisted of 13 of 38 transit participants who had
separated from the Commission, but were still listed as active transit participants.
The second sample consisted of a review of application data for 50 out of
approximately 1,650 headquarters transit benefit program participants. The
OIG’s basis for selecting the 50 participants consisted of identifying individuals
claiming the maximum transit benefit per month and individuals who were on
extended leave and or had re-occurring telework schedules during Fiscal Year
2008.




Audit of Public Transportation Benefit Program                        March 27, 2009
Report No. 456
                                           Page 21
                                                                   Appendix III


                                             Criteria

Executive Order 13150, April 21, 2000 - Mandated all Federal agencies in the
National Capital Region (Washington, D.C. metropolitan area) to implement a
transit pass benefit program by October 2000.

SEC Administrative Regulation SECR 5-9, February 16, 2005 - Established
policies and procedures for the SEC’s Public Transportation Benefit Program as
an incentive for its employees to use public transportation and to rideshare.

Office of Management and Budget Memorandum M-07-15, May 14, 2007-
Required all agencies with a transit program to implement several internal
controls designed to deter fraud, waste, and abuse.

SEC Administrative Regulation SECR 7-4, Employee Clearance Process,
December 31, 1999 – Establishes a method for all personnel who are leaving
the SEC to return any documentation or other Government property which they
have obtained during the course of employment.




Audit of Public Transportation Benefit Program                   March 27, 2009
Report No. 456
                                           Page 22
                                                                        Appendix IV


                          List of Recommendations
Recommendation 1

The Office of Human Resources should finalize its revised transit benefit
program application by April 30, 2009 and ensure that the application:

    (a) Requires transit benefit program participants to provide a
        breakdown of commuting costs in accordance with the Office of
        Management Budget guidelines; and
    (b) Includes a certification below the Administrative Officer’s signature
        line that clearly states that the application had been reviewed for
        verification of eligibility and commuting costs.

Recommendation 2

The Office of Human Resources should conduct periodic training and
issue reminders to Administrative Officers of their responsibility to verify
transit benefit program participants’ eligibility and commuting costs.

Recommendation 3

The Office of Human Resources should put in place a process to require
transit participants to re-certify annually their eligibility and commuting
costs (i.e., complete a new transit benefit application).

Recommendation 4

The Office of Human Resources should implement a process to obtain
data on all separated Commission employees and compare that data to
the Department of Transportation’s (DOT) transit database to ensure that
all separated employees who participated in the transit program have
been promptly removed from DOT’s records.

Recommendation 5

The Office of Human Resources, in coordination with the Office of
Financial Management, should pursue collection of the $394 in erroneous
benefits that were collected by transit participants after separating from
the Commission.


Audit of Public Transportation Benefit Program                         March 27, 2009
Report No. 456
                                           Page 23
Recommendation 6

The Office of Human Resources should ensure for each file identified as missing
or incomplete that it obtains the necessary documentation to create a file
(electronic or hard copy) containing, at a minimum, a copy of the participant’s
transit benefit program application, SmartBenefit application, and documentation
to support changes in commuting costs

Recommendation 7

The Office of Human Resources should develop a process to conduct
internal reviews periodically of transit participants to ensure they properly
reduce benefits as required and only collect the benefits they are entitled
to receive.

Recommendation 8

The Office of Human Resources (OHR) should periodically remind transit
benefit program participants that they are required to reduce benefits if
they are on extended medical or personal leave, travel, recurring telework
or any other situation that causes their commuting costs to be less than
the amount they are eligible to receive for that month. Additionally, OHR
should provide participants with instructions on how benefits are adjusted
under the SmartBenefits program.

Recommendation 9

The Office of Human Resources in coordination with the Office of
Financial Management should seek recovery of the estimated $225 in
overpayments that were erroneously collected by transit benefit program
participants while on leave.

Recommendation 10

The Office of Human Resources should implement additional
management controls over regional office transit benefit program
operations to ensure compliance with SEC requirements, including:

    (a) Performing periodic reviews of regional offices to examine their
        transit benefit program processes,
    (b) Requesting that regional offices provide semiannual reports to
        headquarters in addition to the Regional Directors discussing the
        results of their program audits, and
    (c) Requiring regional offices to have written policies and procedures
        tailored to their specific transit benefit programs.

Audit of Public Transportation Benefit Program                         March 27, 2009
Report No. 456
                                           Page 24
                                                      Appendix V
                            Management Comments




Audit of Public Transportation Benefit Program       March 27, 2009
Report No. 456
                                           Page 25
                                                                 Appendix VI

                Office of Inspector General
           Response to Management’s Comments

The Office of Inspector General is pleased that the Office of Human Resources
(OHR) concurred with the report’s 10 recommendations. We believe that OHR’s
proposed actions are responsive to our findings and recommendations and are
pleased that OHR has already taken action to implement many of the
recommendations that are identified in our report. Once all of the
recommendations are fully implemented, we believe the Commission’s internal
controls over the transit benefit program will be strengthened.




Audit of Public Transportation Benefit Program                    March 27, 2009
Report No. 456

                                                 Page 26
                      Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to request an
audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Requests/Ideas)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. # 202-551-6061
Fax # 202-772-9265
Email: oig@sec.gov




       Hotline
       To report fraud, waste, abuse, and mismanagement at SEC,
       contact the Office of Inspector General at:

              Phone: 877.442.0854

              Web-Based Hotline Complaint Form:
              www.reportlineweb.com/sec_oig
